rj

20-

No.

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)

filed
OCT 0 3 2020

/fc<-

*c~— RESPONDENT(S)

US.

ON PETITION FOR A WRIT OF CERTIORARI TO

I

(h

Si/frerr?'C

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

fZy&nS
(Your Name)

Jh&
(Address)

/f<d,
.

fx'tb'C(/ 'i^
(City, State, Zip Code)

Yo$-'L7&'$2-3S
(Phone Number)

RE

oc
OFFICE

T\

QUESTIONS(S) PRESENTED

1.

During an Objection to an Election, if a candidate is duly served and fails to Answer the
Complaint or otherwise appear, is he in Default and should Default Judgement be entered
against him and his primary win set aside?

2.

May a party who is not named as a Defendant in a case file a Motion to Dismiss the Complaint
on behalf of the actual Defendant despite making no appearance in the case on behalf of that
Defendant? A Motion that is then Granted?

3.

Can a Defendant, despite Hawai'i's own Election Laws, be allowed to disregard a properly and
legally served Civil Complaint, not Answer that Complaint per Hawaii Election Laws, and still
be considered the Primary winner despite the Complaint seeking to set his primary win aside?

4.

Can the Hawai'i Supreme Court disregard its own laws pertaining to when an Objection to an
Election must be Answered by a Duly Served Defendant and then Deny Plaintiff's claims for
relief?

r
QUESTION(S) PRESENTED

-I

>

i

.

■i

..;

t :

t

\

t
■f *

1

r. j

j

> .* 7
%

t

r i '

.

J

'4

,

n .i

v *f
t

. 'I : * r

t

’

► r

4

i

1‘

i.j<

J

?T

t

* '

.r.

Mi , •

J. I’
?

",

f

“.

-

k

4

* - c

■

L*

. .

\1

LIST OF PARTIES

[ ] All parties appear in the caption of the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows:

1.) CLARE E. CONNORS, AG of Hawaii,
PATRICIA OHARA, Deputy AG of Hawaii,
LORI N. TANIGAWA, Deputy AG of Hawaii,
425 Queen Street
Honolulu, Hawai'i 96813, Counsel for Hawaii Elections Commissioner

2.) SCOTT T. NAGO
Office of Elections
802 Lehua Avenue
Pearl City, Hawaii 96782

RELATED CASES
NOELLE FAMERA v. KAI KAHELE, CASE NUMBER SCEC-20-0000507 in the Hawaii
Supreme Court

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUATORY PROVISIONS INVOLVED....3
STATEMENT OF THE CASE

4/5

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

7

INDEX TO APPENDICES

APPENDIX A - Hawaii Supreme Court (Election Objection Case Directs only to
this Court). Final Order on 10/2/2020
APPENDIX B - Motion For Default/Default Judgment by Plaintiff
APPENDIX C - ORDER DENYING MOTION
APPENDIX D - CONTRADICTORY ORDER BY SAME COURT

it

TABLE OF AUTHORITIES

Hawaii State Law, HRS §§11-172,11-173.5,11-174.5, and 11-175

Page 1

United States Supreme Court FED.R.CIV.P. 55.................................

Page 1

10 Haw. App. at 416, 876 P.2d at 1345.............................................

Page 1

Molinar v. Schweizer, 95 Hawai'i 331, 335, 22 P.3d 978,982 (2001)

Page 2

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[y^^or cases from state courts:
The opinion>®f the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
&T ■has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

or cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_J_L__

IMP

[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

3-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Page 1

United States Supreme Court FED.R.CIV.P. 55

3

STATEMENT OF THE CASE
In the 2020 Primary for US Congress, District 2, in the State of Hawaii, the Plaintiff, who was/is a
Candidate for this Office filed an Objection per Hawai'i Law (Hawaii State Law, HRS §§11-172,
11-173.5,11-174.5, and 11-175) and the Hawaii Election Commissions own website states:
"Upon filing the complaint, the Supreme Court will issue a summons requiring the defendants
to respond no later than 4:30 pm on the fifth day after they are served. The Supreme Court will
issue its judgment fully stating all findings of fact and of law no later than 4:30 pm on the fourth
day after the return on the summons. This will include a determination of which candidate was
nominated to appear on the general election ballot or who was outright elected, depending on
the office."
The Plaintiff served the Defendant, and a Proof of Service was filed. The Defendant, Kai Kahele,
never Answered the Complaint. The Plaintiff then filed a Notice of Default for the Defendants
failure to Answer the Complaint. The Supreme Court of the United States itself that "If a
defendant fails to respond to a complaint within the time allowed, the plaintiff may seek a
default judgment." FED.R.CIV.P. 55.
In 10 Haw. App. at 416,876 P.2d at 1345 ("defaulted party who failed to answer a complaint
must make a showing why the party was justified in failing to respond to the complaint").
The Defendant did not respond, and neither the Hawaii Elections Commissioner or the Hawaii
Supreme Court can act as the attorneys for the Defendant in this case for which he is in Default
for failure to Answer the Complaint.
The Hawaii Supreme Court denied for Notice of Default and Motion for Default Judgement and
to set aside his Primary win, despite the Defendants failure to Answer the Complaint or appear
in any way to Answer said Complaint. Hawaii Election Law states that the Defendant is to
Answer a Duly Served Complaint within five (5) days. The Defendant did not. Hawaii Election
Law also states that the Hawaii Supreme Court will "Rule within 5 days" upon Proof of Service
being filed with their Court (a summons and Affidavit of service that was filed with their Court).

Still, the Hawaii Supreme Court defied long held law, law that has even been upheld by The US
Supreme Court. The Hawaii Supreme Court abused it's discretion in Denying the Notice of
Default/Motion for Default Judgement and Motion to Set Aside the Primary Win of Kai Kahele
for his failure to Answer a Duly Served Complaint.

"The court abuses its discretion if it bases

it's ruling on an erroneous view of the law or on a clearly erroneous assessment of the
evidence. Stated differently, an abuse of discretion occurs where the trial court has clearly
exceeded the bounds of reason or disregarded rules or principles of law or practice to the
substantial detriment of a party litigant. Id. (quoting Molinar v. Schweizer, 95 Hawai'i 331,335,
22 P.3d 978, 982 (2001).
In the midst of this case, the Hawaii Elections Commissioner, Scott T. Nago, filed a Motion to
Dismiss. Scott T. Nago, as even the Hawaii Supreme Court stated in contradictory Orders within
this case, was not a named Defendant in this case, and yet filed a Motion to Dismiss despite
having no standing in the case by counsel, various Hawaii Attorney Generals, who never filed
any appearance on behalf of the singularly named Defendant in this case, Kai Kahele.
Defendant Kahele was unrepresented, never filed an Answer, and the Hawaii Supreme Court
dismissed the Plaintiffs Complaint when Scott Nago, the Hawaii Election Commissioner who
was never named as a Defendant, filed a Motion to Dismiss through his attorneys, who did not
represent Defendant Kahele, who remains in Default. The Defendant simply never Answered
the Complaint.

5

REASONS FOR GRANTING THE PETITION
There can be no more serious a case than an Objection to an election.
The Primary Winner for an election for US Congress should not be able to ignore a Duly Served
Complaint, ignore it, and then have unrelated parties to the case file Motions to Dismiss the
Complaint when they are not a party to the case, nor did they ever enter an appearance in this
case on behalf of the Defendant. Those who inserted themselves in this Civil Case, which was
Duly Served upon the Defendant, had no standing to represent the Defendant, and no standing
to file a Motion to Dismiss on behalf of the duly served Defendant Kahele in this case.
The Defendant was served. The Defendant failed to Answer. The US Supreme Court has been
firm on this issue and Hawai'i has ignored it because they were more concerned with the
Democratic Candidate they wanted to win than the law.
We must never send the message that anyone is above the law.

L

CONCLUSION

The petition for a writ of certiorari should be granted.

Date:

LO

1

